No. ________

In The

Supreme Court of the United States
STEVEN SUSSEX AND VIRGINIA SUSSEX,
Petitioners,

V.

CITY OF TEMPE,
Respondent.

On Petition for a Writ of Certiorari
to the Arizona Court of Appeals
APPENDIX

JOHN D. WILENCHIK
WILENCHIK & BARTNESS, P.C.
2810 N. Third St.
Phoenix, AZ 85004
(602) 606-2810
jackw@wb-law.com
Counsel of Record for Petitioner
April 7, 2020
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

TABLE OF CONTENTS
Page
Exhibit A – Opinion of the Arizona Court of
Appeals (June 13,
2019)........................................................1a
Exhibit B – Order of the Arizona Supreme Court
denying review (Jan. 8, 2020)..............17a

1a
APPENDIX A
IN THE
ARIZONA COURT OF APPEALS
DIVISION ONE
CITY OF TEMPE, Plaintiff/Appellee,
v.
STEVEN SUSSEX, et al., Defendants/Appellants.
No.1 CA-CV 18-0149
FILED 6-13-2019
Appeal from the Superior Court in Maricopa County
No. CV 2016-007626
The Honorable Karen A. Mullins, Judge
AFFIRMED
COUNSEL
Tempe City Attorney's Office, Tempe
By Shelley D. Cutts, Judith R. Baumann
Counsel for Plaintiff/Appellee
Wilenchik & Bartness PC, Phoenix
By John D. Wilenchik
Co-Counsel for Defendants/Appellants
Farley Robinson & Larsen, Phoenix
By Gregory A. Robinson
Co-Counsel for Defendants/ Appellants

2a
MEMORANDUM DECISION
Judge Jennifer B. Campbell delivered the decision of
the Court, in which Presiding Judge Paul J. McMurdie and Judge Randall M. Howe joined.
CAMPBELL, Judge:
Steven and Virginia Sussex appeal the superior
court's order granting summary judgment for the
City of Tempe on its claim of ejectment and denying
summary judgment on their counterclaims for declaratory judgment and inverse eminent domain or
conversion. Because the City has demonstrated it
has a valid subsisting interest in the contested
property and the Sussexes have demonstrated none,
we affirm.
BACKGROUND
This appeal arises from a longstanding dispute over
a parcel of land, complete with a more than centuryold adobe house, on West 1st Street in Tempe ("the
Property"). The relevant history began in the 18th
century, when the United States government conducted a federal survey of the public domain that
divided the vast expanse of territorial lands into a
grid-like pattern of townships, each containing 36
approximately one square-mile sections. See, e.g.,
Timothy M. Hogan & Joy E. Herr-Cardillo, 100 Years
of Keeping the Trust: The Historic Role of the Judiciary in Protecting Arizona's State Land Trust, 44
Ariz. St. L.J. 589,589-90 (2012). A center section of
each township, Section 16, was reserved in trust for
school funding. Id. at 590. By the 19th century, the

3a
federal government began disposing of huge tracts of
unsettled Western territory to people and enterprises
that would put the land to productive useshomesteaders and railroads chief among them. See,
e.g., Rebecca W. Watson & Nora Pincus, Public Land
Legal Basics, 36 E. Min. L. Found.§ 5.02[2][b] (2015).
To further incentivize the expansion of railroad lines,
the federal government passed several laws granting
railroad companies various interests in sections of
land running along the lines they constructed. See id.
One such law, the General Railroad Right-of-Way
Act of 1875, granted railroad companies rights-ofway through the public domain to build rail lines and
to use and occupy adjacent lands for operational
purposes and to build railway stations. See, e.g., 73B
C.J.S. Public Lands§ 227 (2019).
During this land-disposition era, the federal government adopted a policy of making large land grants
directly to new state governments for their use as a
revenue source to support public education and other
public institutions. See, e.g., Hogan, 44 Ariz. St. L.J.
at 589-90. When the United States Congress conferred statehood on Arizona in 1910, it gave the new
state about nine million acres of federal landincluding the lands designated by the federal surveyto be held in trust for the support of the common
schools. Gladden Farms, Inc. v. State, 129 Ariz.
516,518 (1981); Arizona-New Mexico Enabling Act §§
24, 25 (1910) (the "Enabling Act"). Conscious of past
frauds and abuses in other states, Congress incorporated strict language in the Enabling Act and included a requirement that "[s]aid lands shall not be sold

4a
... except to the highest and best bidder at a public
auction .... " Gladden Farms, 129 Ariz. at 518; Enabling Act § 28.
These historical forces all contributed to the current
dispute over the Property, which sits on one of the
Section 16 plots designated by the federal survey.
The Property has long been the subject of the competing claims of the Union Pacific Railroad Company, the State of Arizona, the City of Tempe, and the
Property's current occupant the Sussexes, who are
descendants of a family of early Arizonan settlers.
The Union Pacific Railroad Company, through its
predecessors in interest (together, "Union Pacific"),
claimed to have been granted exclusive use and
occupancy rights to the Property through the General Railroad Right-of-Way Act of 1875. Claiming
that its interest was tantamount to a fee estate,
Union Pacific maintained that any interest in the
property the federal government granted to the State
via the Enabling Act was subject to the prior conveyance to Union Pacific. Although the exact nature of
Union Pacific's interest was not resolved through
litigation, Union Pacific and the Arizona State Land
Department (the "Land Department") eventually
settled their dispute in 2002. The settlement agreement contained no conclusion or admission by the
Land Department concerning "the rights, estate or
interests granted by the United States to Union
Pacific or any other entity under the 1875 Act," but
Union Pacific agreed to relinquish any and all claims
it may have had in the Property as against the Land
Department. In accordance with the agreement, the
Land Department executed a quitclaim deed convey-

5a
ing the Property to Union Pacific in exchange for a
payment of $1,050,000. Union Pacific then conveyed
the Property to the City of Tempe through a series of
quitclaim deeds- the first executed in 2002, the
second in 2005-in exchange for a payment of over
$1,554,000.
Even as these developments were taking place, the
Property was being physically occupied by the Sussexes. They contend that Steven Sussex's ancestors
settled on the Property well before Arizona achieved
statehood and have been occupying it ever since. In
1892, Steven Sussex's great-grandfather purchased
the adobe house from another settler, but no deed
was ever recorded. In 1967, Steven Sussex's grandmother transferred whatever rights she had in the
Property to him. The Sussexes have since maintained a "gate" around the Property and at various
intervals allowed family members to live on the
Property, ran a business from the Property, and
stored vehicles and other items on the Property.
In 2015, following the City of Tempe's demand that
they vacate the Property, the Sussexes brought an
action against the City seeking to quiet title by
claiming they had acquired the Property through
adverse possession. See Sussex v. City of Tempe, 1
CA-CV 16-0207, 2017 WL 772434 at ¶¶ 2-4 (Ariz.
App. Feb. 28, 2017) (mem. decision). The superior
court granted the City's motion to dismiss and this
court ultimately affirmed, concluding that the Sussexes could not obtain the Property from the City via
adverse possession. Id. at ¶¶6, 15. As a municipality,
the City was exempt from the relevant statute of

6a
limitations and therefore immune to the Sussexes'
adverse possession claim. Id. at ¶ 15.
In May 2016, the City filed a complaint to eject the
Sussexes from the Property pursuant to Arizona
Revised Statutes (" A.R.S.") § 12-1251, alleging it had
a valid subsisting interest in the Property as both
the legal and record owner. The Sussexes answered
and counterclaimed for inverse eminent domain or
conversion and for a declaratory judgment stating
that the City had no title in the Property.
In their answer, the Sussexes presented the superior
court with two alternative defenses claiming that the
City's title was void: either (1) the State originally
acquired fee title to the Property from the federal
government and the Land Department therefore
violated the Enabling Act by conveying the Property
to Union Pacific without conducting a public auction,
voiding all subsequent conveyances; or (2) Union
Pacific originally acquired fee title to the Property
from the federal government (excluding the Property
from the later Enabling-Act grant), and the Sussexes
eventually extinguished Union Pacific's title through
adverse possessionmeaning Union Pacific had no
good title to convey to the City. In their answer and
counterclaims, the Sussexes did not ask the superior
court to quiet title to the Property in their favor;
rather, they argued that regardless of whether the
State or Union Pacific originally acquired title to the
Property, the City could not acquire title through
either source and thus had no valid basis for its
ejectment claim. As a counterclaim, the Sussexes
asked the court for a declaratory judgment that the

7a
City's title to the Property is void pursuant to their
first defensive theory that the State failed to comply
with the Enabling Act by conveying the Property
without conducting a public auction and the City
therefore had not acquired title.
The City moved to dismiss the Sussexes' counterclaims as barred by res judicata, arguing that they
were again trying to quiet title in their favor after
their 2015 adverse possession suit had already
failed. In response, the Sussexes argued their counterclaims were not barred because they were not
asking the court to quiet title in their favor; rather,
they were merely disputing the validity of the City's
title and its ability to eject them from the Property.
The superior court denied the City's motion, ruling
that the Sussexes' counterclaims were not barred by
res judicata:
In the 2015 case, [the Sussexes] sought to quiet title in [their] name based upon adverse
possession .... In the case at hand, the City
seeks to eject [the Sussexes] from the Property
... [and] the City must prove it has a valid subsisting interest in the Property and a right to
immediate possession .... Only a party having
title or the right to immediate possession may
bring an action for ejectment, and [the Sussexes'] Counterclaim for Declaratory judgment
alleges that the City has no right to title or
possession. The question of the City's title or
right to possession was not in issue in the
2015 case; only [the Sussexes'] actions, as evidence of adverse possession, were in issue.

8a
Thus, res judicata does not apply to [the Sussexes'] Declaratory Judgment claim.
The City then moved for summary judgment, asserting claims for ejectment, quiet title, and continuing
trespass. The Sussexes crossmoved for summary
judgment on the City's claims, again arguing the
City had no valid title to the Property either because
the State had violated the Enabling Act in conveying
the Property or because they had adversely possessed the Property from Union Pacific. The superior
court rejected all of the Sussexes' claims and granted
summary judgment to the City on its ejectment
claim, ruling that the City had a valid subsisting
interest in the Property and the Sussexes had no
possessory interest in the Property. After the superior court denied their subsequent motion for reconsideration, the Sussexes appealed.
DISCUSSION
"On appeal from a summary judgment, we view the
evidence in a light most favorable to the party
against whom judgment was granted." Desilva v.
Baker, 208 Ariz. 597, 600, ¶ 10 (App. 2004). "We
review de novo the superior court's grant of summary
judgment, including its assessment of the existence
of factual disputes and its application of the law."
Coulter v. Grant Thornton, LLP, 241 Ariz. 440,447, ¶
23 (App. 2017). We will affirm the entry of summary
judgment if it is correct for any reason. Hawkins v.
State, 183 Ariz. 100, 103 (App. 1995).

9a
In its motion for summary judgment, the City asked
the superior court to grant its claim for ejectment
pursuant to A.R.S. § 12-1251(A), which states:
A person having a valid subsisting interest in
real property and a right to immediate possession thereof may recover the property by action
against any person acting as owner, landlord
or tenant of the property claimed.
(Emphasis added.) "Ejectment is a possessory action
in which the basis of the cause of action is the plaintiff's right of immediate possession. Absent the right
to possess the property, one cannot sue for ejectment" under A.R.S. § 12-1251. Ziggy's Opportunities,
Inc. v. I-10 Indus. Park Developers, 152 Ariz. 104,
107 (App. 1986) (citations omitted). "The purpose of
an ejectment action, as opposed to quiet title action,
is not to determine the relative and respective rights
of all potential title holders, but rather the immediate rights between the plaintiff and the defendant
involved in that particular litigation." 28A C.J.S.
Ejectment § 2 (2019). However, "[t]he common law
action of ejectment is now codified in this and most
states ... , and in such an action the Court may
determine the question of which party has the paramount legal title to the premises for the purpose of
determining who has the right to possession." Old
Bros. Lumber Co. v. Rushing, 64 Ariz. 199, 204
(1946); see also Taylor v. Sanford, 100 Ariz. 346,349
(1966).

10a
I. The Sussexes' Enabling Act Claim
In its summary judgment ruling, the superior court
found that the City had a valid subsisting interest in
the Property and that the Sussexes had demonstrated none. The court ruled that the Sussexes' primary
challenge to the validity of the City's title-through
their theory that the State violated the publicauction requirement of the Enabling Act in disposing
of the Property and that all subsequent conveyances
were void as a matter of law-was time-barred by the
statute of limitations for actions against municipalities under A.R.S. § 12-821. The Sussexes argue the
court erred by applying that statute of limitations
because their challenge was only an affirmative
defense against ejectment and not a claim they were
obligated to bring against the City themselves.
Pursuant to A.R.S. § 12-821, “[a]ll actions against
any public entity ... shall be brought within one year
after the cause of action accrues and not afterward.”
A cause of action against a public entity accrues
“when a plaintiff discovers or reasonably should have
discovered that an injury was caused by the government's action.” Canyon del Rio Inv'rs, LLC v. City of
Flagstaff, 227 Ariz. 336,340, ¶ 16 (App. 2011).
The Arizona Supreme Court applied this statute in
Mayer Unified School District v. Winkleman, in
which two school districts brought suit against the
Land Department for granting numerous easements
to government entities without requiring compensation to the school land trust, in violation of the
Enabling Act. 219 Ariz. 562,564, ¶¶ 2-5 (2009). The

11a
Court held that the districts' action was time-barred
pursuant to A.R.S. § 12-821 because several decades
before the districts filed their action against the
Land Department, the United States Supreme Court
had issued its opinion in Lassen v. Arizona ex. rel.
Arizona Highway Department, 385 U.S. 458 (1967).
That case "held that government entities that acquire trust lands, even for uses that benefit the
public, must compensate the school trust." Mayer,
219 Ariz. at 566, ¶ 17. Relying on Lassen, the Arizona Supreme Court held that the districts "reasonably
should have known that compensation for the easements was required and had not been paid" more
than one year before they filed their action and their
claim was therefore time-barred. Id.
Here, the superior court found that the Sussexes
knew or reasonably should have known that the
State had allegedly violated the Enabling Act by not
holding a public auction more than one year before
they filed their answer and counterclaim for declaratory judgment. Specifically, the superior court foundbased on items in the record – that the Sussexes
knew of the quitclaim deeds purporting to convey
title to the City no later than February 2015 and
knew that the Property sits on designated school
trust land before they brought their lawsuit for
adverse possession in May 2015. The Sussexes had
one year thereafter to file a suit against the Land
Department, Union Pacific, and the City of Tempe
for a violation of the Enabling Act, see Baier v. Mayer
Unified Sch. Dist., 224 Ariz. 433,438, ¶ 16 (App.
2010) (recognizing that taxpayers may sue for violations of the Enabling Act), but did not do so until
July 2016.

12a
The Sussexes' characterization of their Enabling-Actviolation theory as both an affirmative defense in
their answer and a counterclaim is insufficient to
overcome the time bar to this claim. In Mayer, the
Arizona Supreme Court determined that not even
the school districts- direct beneficiaries of the state
land trust-were permitted to circumvent A.R.S. § 12821 to untimely assert that the Land Department
violated the Enabling Act. 219 Ariz. at 566, ¶ 17; see
also Cook v. Town of Pinetop-Lakeside, 232 Ariz. 173,
175, ¶ 8 (App. 2013) (noting that A.R.S. § 12-821's
“‘all actions' language does not lend itself to a limited
interpretation that excludes some claims against a
public entity") (citations omitted). Section 12-821
"extends to claims for declaratory relief," and "[w]hen
a complaint asserts a claim for declaratory reliet the
court looks for affirmative conduct by a party that
removes the claim from ‘the realm of mere possibility' and creates ‘ an actual controversy.’” Rogers v. Bd
of Regents of Univ. of Ariz., 233 Ariz. 262, 267-68,
¶17 (App. 2013). Here, the relevant "affirmative
conduct" was the Sussexes' adverse possession suit,
by which time the Sussexes were certainly on notice
that the Property's ownership was in dispute. Once
they learned of the State's alleged violation of the
Enabling Act, the Sussexes were not permitted to
simply do nothing, either as taxpayers or as occupants claiming ownership of the Property.
The Sussexes additionally argue that the superior
court erred by not resolving the City's ejectment
claim in accordance with A.R.S. § 12-1252(A), which
states that a "plaintiff must recover on the strength
of his own title." Although the superior court erred
by finding that subsection (A) only "applies in cases

13a
of joint ownership, such as tenants in common or
joint tenancy," the error was not material to the
outcome of the court's ruling.
Although § 12-1252(B) pertains to actions concerning
tenants in common or joint tenants, nothing in the
statute limits subsection (A)'s application to cotenancies. The heading of the article under which
A.R.S. § 12-1252 falls reads "Recovery of Real Property," and subsection (B) simply applies extra evidentiary requirements to cases specifically involving
joint ownership. See State ex rel. Montgomery v.
Harris, 237 Ariz. 98, 101-02, ¶ 13 (2014) ("[W]e
consider a statute in light of its place in the statutory
scheme, and although statutory title headings are
not part of the law, they can aid in its interpretation.").
Regardless, "[t]here is a rebuttable presumption that
record title accurately reflects the ownership interest
in the real property." Boone v. Grier, 142 Ariz. 178,
182 (App. 1984) (explaining that plaintiffs claiming
an interest in real property had the burden of overcoming the presumption that the record-title holder
was the rightful owner). The Sussexes presented no
facts or valid arguments rebutting the presumption
that the City's quitclaim deeds reflected its valid title
to the Property. The superior court effectively determined, and we agree, that the City had the stronger,
paramount legal title and the Sussexes had demonstrated none, in accordance with the prescription of
A.R.S. § 12-1252(A).
Under either his Enabling-Act or adverse-possession
theory, the Sussexes have failed to demonstrate that

14a
they have any claim to title of the Property and
failed to call into question the strength of the record
title held by the City. We therefore affirm the superior court's grant of summary judgment on the City's
claim of ejectment.
II. The Sussexes' Adverse Possession Claim
Further, although the superior court did not explicitly address the Sussexes' alternative argument that
they acquired title to the Property via adverse possession from Union Pacific, the Sussexes already
tried and failed to acquire title to the Property
through an adverse possession claim in a previous
lawsuit against the City. See Sussex, 1 CACV 160207, 2017 WL 772434 at 1, ¶¶ 3-4. "The doctrine of
claim preclusion, or res judicata, bars a claim when a
former judgment on the merits was rendered by a
court of competent jurisdiction and the matter now
in issue between the same parties or their privities
was, or might have been, determined in the former
action." Tumacacori Mission Land Dev., Ltd. v.
Union Pac. R.R. Co., 231 Ariz. 517, 519, ¶ 6 (App.
2013) (internal quotation omitted). The superior
court denied the City's motion to dismiss the Sussexes' declaratory judgment claim, explaining that res
judicata did not apply to the Sussexes Enabling-Act
theory because it focused on the City's right to title
rather than his own, and therefore it need not have
been determined in the previous suit. The Sussexes'
current adverse-possession theory against Union
Pacific, however, does focus on his own right to title
and the time to address that issue was in his previous suit. See Tumacacori, 231 Ariz. at 520, ¶ 11

15a
("[C]laim preclusion does not prevent a party from
presenting alternative theories in its first action, and
it protects such competing interests" as finality in
litigation, the prevention of harassment, and efficiency in the use of the courts.). We may affirm a
summary judgment ruling if it is correct for any
reason, Hawkins, 183 Ariz. at 103, and conclude that
the Sussexes' alternative defensive theory that they
acquired the Property through adverse possession
from Union Pacific is barred by res judicata.
III. The Sussexes' Inverse Eminent Domain or
Conversion Claims
The Sussexes further contend that the superior court
separately erred by denying summary judgment on
their claims of inverse eminent domain or conversion, arguing they are entitled to just compensation
for any improvements they have made to the Property. The Sussexes have provided no conclusive evidence that they themselves hold title to, or any valid
interests in, the Property-nor have they prevailed on
their claims that the City lacks good title. To prevail
in a suit for inverse eminent domain-a claim that is
not governed by any statutory requirements-" a
plaintiff must prove a governmental entity constructed or developed a public improvement that
substantially interfered with the plaintiff's property
right." A Tumbling-T Ranches v. Flood Control Dist.
Of Maricopa Cty., 222 Ariz. 515, 525, ¶ 18 (App.
2009). "To maintain an action for conversion, a
plaintiff must have had the right to immediate
possession of the personal property at the time of the
alleged conversion." Case Corp. v. Gehrke, 208 Ariz.

16a
140, 143, ¶ 11 (App. 2004). The Sussexes have not
demonstrated that they have any legitimate rights to
the Property, that the City has substantially interfered with those alleged rights, or that the City has
wrongfully converted any of their personal property.
We therefore affirm the superior court's ruling on
these claims.
CONCLUSION
For the foregoing reasons, we affirm.

17a
APPENDIX “B”
Supreme Court
STATE OF ARIZONA
January 8, 2020
RE: CITY OF TEMPE v STEVEN SUSSEX et ux
Arizona Supreme Court No. CV-19-0170-PR
Court of Appeals, Division One No. 1 CA-CV 18-0149
Maricopa County Superior Court No. CV2016-007626
GREETINGS:
The following action was taken by the Supreme
Court of the State of Arizona on January 7, 2020, in
regard to the above-referenced cause:
ORDERED: Petition for Review = DENIED.
Chief Justice Brutinel did not participate in
the determination of this matter.
Janet Johnson, Clerk
TO:
Judith R Baumann
Michael R Niederbaumer
Sarah R Anchors
John D Wilenchik
Rebecca E Stanton
Amy M Wood
ga

